           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      LIMITED REVIEW OF
   CONNECTICUT DISABILITY
   DETERMINATION SERVICES’
         LEASE COSTS


   October 2002       A-15-02-22040



  MANAGEMENT
 ADVISORY REPORT




                  .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   October 3, 2002                                                                 Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         for Boston

From:   Assistant Inspector General
         for Audit

Subject: Management  Advisory Report – Limited Review of Connecticut Disability Determination
        Services’ Lease Costs (A-15-02-22040)


        OBJECTIVE
        Our objective was to conduct a cost-benefit analysis of the Connecticut Disability
        Determination Services’ (CT-DDS) current lease agreement. CT-DDS did not get
        approval from the Social Security Administration (SSA) before entering into the lease
        agreement for the new site.

        BACKGROUND
        This follow-up review is in response to your July 20, 2001 comments to our report
        entitled Audit of the Administrative Costs Claimed by the Connecticut Disability
        Determination Services.

        At that time, the Regional Commissioner’s (RC) Office requested that we conduct a
        review of the CT-DDSs site lease and indirect cost allocation plan.1

        Specific concerns related to the lease costs were: (i) the state failed to provide a cost
        benefit analysis of the CT-DDS move, (ii) CT-DDS failed to demonstrate that the current
        rental rate is comparable to the local market, and (iii) the CT-DDS failed to seek
        advance or pre-approval of its current lease from SSA.




        1
         The review of the indirect cost allocation plan will be issued in a separate report. We are reviewing the
        State of Connecticut cost allocation plan, along with the Department of Health and Human Services,
        CT-DDSs cognizant audit agency.
 Page 2 – Manuel J. Vaz

 SCOPE AND METHODOLOGY
 We limited our review to lease costs. We contacted the State Department of Social
 Services (DSS) and confirmed that a cost-benefit analysis had not been prepared. In
 addition, we were informed that the lease information was no longer available. Although
 this impaired our attempts to perform a complete cost-benefit analysis, we were able to
 conduct a limited analysis using a comparative approach.

 We examined correspondence between the DSS and regional office staff related to the
 site lease covering the period December 1997 through January 1998. This
 correspondence detailed the results of various meetings. We also reviewed General
 Services Administration (GSA) material on rental costs of other facilities in the
 Hartford, Connecticut, area. We also reviewed the Program Operations Manual System
 (POMS) to determine whether the RC’s has the authority to approve leases. We
 conducted field work from April to June 2002 at SSA Headquarters in
 Baltimore, Maryland.

 RESULTS OF REVIEW
 COST COMPARISON OF ORIGINAL AND CURRENT LOCATIONS

                     Based on our review of lease documentation for the previous
 Rental Costs at
                     10 Griffin Road location and the current Wawarme Avenue location,
 Both Locations
                     we determined the monthly rental rates for the locations to be
 Are Relatively
                     $28,125 and $31,630 respectively. The CT-DDS monthly rental at
 Equal
                     the current location is approximately $3,500 more than the old
                     location. However, included in the current location’s monthly rate is
                     electricity and snow removal, which was an added cost at the prior
                     location. The monthly cost of electricity at the prior location from
                     January through April 1999 was approximately $5,900. For the
                     same period, the average cost of snow removal per month was
                     approximately $2,900. Details are shown below.

10 Griffin         January       February       March          April        Average
                                                                            Cost
Snow Removal         $4,571.00     $2,021.00       $2,139.00      $2,867.00      $2,900
Electrical            4,303.52      5,968.15        6,159.79       7,201.03      $5,900
Total                $8,874.52     $7,989.15       $8,298.79     $10,068.03
Page 3 – Manuel J. Vaz

MARKET ANALYSIS

Annual Rates are We performed a limited independent market analysis of other SSA
Comparable and locations rented through GSA to determine whether the rate
Reasonable       charged per square foot at the new location conformed with GSA
                 negotiated rates in the Hartford, Connecticut, area. The results are
                 as follows.


                       SSA Locations                      Annual Rate
                       135 High St., Hartford                      $15.65
                       20 Church St., Hartford                     $19.84
                       Burnside Ave., East Hartford                $11.96
                       100 Arch St., New Britain                   $11.22
                       225 North Main St., Bristol                   $9.75


                       DDS Location                       Annual Rate
                       309 Wawarme Ave., Hartford                  $10.75

The new DDS location annual rates are in line with rates being charged in the area.

Other Matters
We acknowledge the Agency’s concern regarding the CT-DDS’ noncompliance with
POMS requirements for pre-approval of the lease.2 However, our review of
correspondence between RC office and CT-DDS staff disclosed there were significant
indications of CT-DDS’ plans to move. Correspondence dating back to
November 1997, which was approximately 18 months before the lease agreement was
signed, indicated that RC staff knew of the impending move. As such, it appears RC
staff had sufficient time to advise the CT-DDS of approval requirements and reiterate
the Agency’s desire to obtain a cost-benefit analysis.




2
    POMS § DI 39527.010, Lease Negotiations – DDS Office Space.
Page 4 – Manuel J. Vaz

CONCLUSION
Based on our review, we concluded that SSA had not incurred unreasonable or
excessive costs for the CT-DDS relocation even though CT-DDS failed to seek SSA’s
pre-approval of the move. As indicated in the Other Matters section of the report, we
believe it is important that SSA effectively communicate its approval requirements to the
DDS(s). SSA has the authority to withhold funding when DDSs submit claims for
unapproved costs. In the future when SSA has questions about certain expenditures,
the Agency may withhold funding until the DDS submits required documentation3.




                                                       Steven L. Schaeffer




3
    20 C.F.R. §404.1626(d); 20 C.F.R. 416.1026(d); POMS § DI 39506.001.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – OIG Contacts and Staff Acknowledgments
                                                    Appendix A
Acronyms
CT-DDS     Connecticut Disability Determination Services

DSS        Department of Social Services

GSA        General Services Administration

POMS       Program Operations Manual System

SSA        Social Security Administration

RC         Regional Commissioner
                                                                       Appendix B
OIG Contacts and Staff Acknowledgments
OIG Contacts
    Frederick C. Nordhoff, Director, Financial Audit Division, (410) 966-6676

    Carl Markowitz, Deputy Director, Financial Audit Division, (410) 965-9742

Acknowledgments
In addition to those named above:

    Suzanne Valett, Auditor-in-Charge


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-02-22040.
                            DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Team Leaders                                                                  25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                            96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
